Supreme Court, U.S.
FILED

WAIVER
SUPREME COURT OF THE UNITED STATES
No.

APR 1 3 2021
OFFICE OF THE CLERK

RECEIVED
APR 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

20-1416

New York. City Department of Education

Dorothy Neske
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE ashington, D.C. 20543).
Signature:
4/9/21

Date:

(Type or print) Name Eric Lee
0 Mr.

0

Ms.

0 Mrs.

Firm

New York City Law Department

Address

100 Church Street

City & State

New York, NY

Phone

212-356-4053

0

Miss

Zip 10007
Email erlee@law.nyc.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Rory Bellantoni
cc:

